Firefox about:blar

WAIVER

Supreme Court of the United States

No. 20-421
Progressive Lawn Managers, Inc. v. Inc. Lawn Managers, Inc.
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
XOX Please enter my appearance as Counsel of Record for all respondents.

O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

XOX am a member of the Bar of the Supreme Court of the United States.

2 Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

Signature Stramied Gre,
Date: October /5, 2020

(Type or print) Name. Susan Nell Rowe
OMr. Ms. O Mrs. Miss

Firm___Rowe Law Office, LLC
Address___2117 Nebraska Avenue
City & State__St. Louis, Missouri Zip
Phone __ 314-852-8291
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF

PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

63104

Ce: Mr. Don V. Kelly & Mr. Alexander M. Hurst
Evans & Dixon, LLC
211 North Broadway, Suite 2500

Obtained Quis MQ 83}07:ccket. By phone at 202-479-3034 or via the internet at
http:/www.supremecourtus.gov. Have the Supreme Court docket number available.

lof 1 10/15/20, 12:51
